FY 2009 OFFICE OF INSPECTOR GENERAL
   AUDIT OF THE E2 TRAVEL SYSTEM
         SECURITY CONTROLS
  REPORT NUMBER A080180/B/T/F09008


            August 7, 2009
                                         FY 2009 OFFICE OF INSPECTOR GENERAL
                                            AUDIT OF THE E2 TRAVEL SYSTEM
                                                  SECURITY CONTROLS
                                           REPORT NUMBER A080180/B/T/F09008

                                                             TABLE OF CONTENTS

                                                                                                                                                                 PAGE

EXECUTIVE SUMMARY ............................................................................................................. i

  Purpose ......................................................................................................................................... i

  Background................................................................................................................................... i

  Results in Brief ............................................................................................................................ ii

  Recommendations ...................................................................................................................... iii

  Management Comments ............................................................................................................. iii

INTRODUCTION .......................................................................................................................... 1

RESULTS OF AUDIT.................................................................................................................... 3

  Management Controls...................................................................................................................4
        Certification and Accreditation Completed for E2 Did Not Consider Controls for and Risks with GSA’s
        Specific IT Systems Environment ..................................................................................................................... 4

        Additional Actions Are Needed to Establish Required System Interconnection Agreements ........................... 5

  Operational Controls.....................................................................................................................6
        Providing Contractors with Full System Access Prior to Successful Completion of Background
        Investigations Increases Risk to the System ...................................................................................................... 6

        Improvements to Verify Security Awareness Training for Contractor Personnel Are Needed ......................... 7

  Technical Controls........................................................................................................................7
        Implementing Two-Factor Authentication Would More Securely Authenticate Users to the System to Better
        Protect GSA Employee Travel and Financial Information ................................................................................ 8

        Access to Procedures for Privileged Users Are Not Restricted to Those with a Need-to-Know ....................... 8

        Prompt Remediation of Configuration Management Vulnerabilities Could Reduce Risks from Known
        Vulnerabilities ................................................................................................................................................... 9

        GSA Should Specify if Approved Domain Is Required for Accessing E2 ...................................................... 10
     Use of Secure Government E-mail Accounts When Resetting E2 User Passwords Could Reduce System
     Risks ................................................................................................................................................................ 10

  Next Steps ............................................................................................................................................................ 11

CONCLUSIONS ........................................................................................................................12

RECOMMENDATIONS............................................................................................................12

MANAGEMENT COMMENTS ................................................................................................13

INTERNAL CONTROLS ..........................................................................................................14

APPENDIX A – OBJECTIVE, SCOPE, AND METHODOLOGY ....................................... A-1

APPENDIX B – SECURITY ROLES AND RESPONSIBILITIES RELATED TO GSA’S
IMPLEMENTATION OF E2 ...................................................................................................B-1

APPENDIX C - GSA-OIG E2 FISMA AUDIT PRELIMINARY OBSERVATIONS ...........C-1

APPENDIX D – E2 SYSTEM INTERCONNECTIONS ....................................................... D-1

APPENDIX E – DATABASE SECURITY RESULTS ........................................................... E-1

APPENDIX F – NETWORK SECURITY RESULTS ............................................................ F-1

APPENDIX G – MANAGEMENT COMMENTS ................................................................. G-1

APPENDIX H – REPORT DISTRIBUTION ......................................................................... H-1 
                            FY 2009 OFFICE OF INSPECTOR GENERAL
                               AUDIT OF THE E2 TRAVEL SYSTEM
                                     SECURITY CONTROLS
                              REPORT NUMBER A080180/B/T/F09008

                                        EXECUTIVE SUMMARY

Purpose

In December 2006, the General Services Administration (GSA) implemented E2 Solutions (E2),
an operational system that is maintained for agencies by a Federal contractor, to provide for its
travel management needs. The system currently processes approximately 36,000 temporary duty
and local travel vouchers per year covering $28.2 million in travel expenses for GSA travelers.
E2 is a moderate risk 1 Privacy Act System of Record 2 that contains personally identifiable
information (PII) as well as financial and travel data. The E2 system is included in GSA’s
Federal Information Security Management Act of 2002 (FISMA) inventory maintained by the
GSA-Chief Information Officer (CIO), and will be included in our Fiscal Year (FY) 2009
FISMA report The objective of this information security review of E2 was to determine if GSA
has implemented management, operational, and technical security controls to effectively manage
risks inherent with a travel and financial management system which holds PII in accordance with
FISMA and the Agency’s Information Technology (IT) Security Program. If not, what
additional actions are needed to better manage IT security risks for the system? Appendix A
provides our objective, scope, and methodology for the audit.

Background

Expanding Electronic Government (e-Gov) is one of the key elements of the President’s
Management Agenda (PMA) initiated by President George W. Bush in July 2001. The e-Gov
initiative goals include more results-oriented, efficient, and citizen-centered processes for the
Federal government. GSA is the managing partner for the e-Gov Travel Service (ETS) initiative,
one of the 24 initiatives included in the PMA. The ETS was launched in April 2002 to meet the
goals of the PMA. It is a Government-wide, web-based service intended to provide travel
management practices to consolidate Federal travel, minimize cost, and produce superior
customer satisfaction. Goals for ETS include developing a Government-wide, web based, world-
class travel management service; establishing a cost model that reduces or eliminates capital
investment and minimizes total cost per transaction for the government; and creating a policy
environment based on the use of best travel management policies.




1
  Federal Information Processing Standards (FIPS) Publication (PUB) 199, Standards for Security Categorization of
Federal Information and Information Systems, February 2004, requires Federal agencies to classify their information
systems into one of three risk levels: low, moderate, or high. GSA’s designation of E2 as moderate risk means that
the Agency has made a determination that the loss of system confidentiality, integrity, or availability could be
expected to have a serious effect on organizational operations, organizational assets, or individuals.
2
  A Privacy Act System of Record is a system containing information that is retrieved by an individual’s name or
other unique identifier assigned to the individual. This information is protected under the Privacy Act of 1974.


                                                         i
In November 2003, the GSA Federal Acquisition Service (FAS) Program Management Office
(PMO) awarded three competitively bid contracts to vendors to implement the ETS and provide
for web-based, travel management services for the Federal government until 2013. The master
contract with Carlson Wagonlit Government Travel (CWGT) was for use of its E2 Solutions
(E2), one of the three systems offered under the ETS initiative. Under this contract, the GSA
Chief Financial Officer (CFO) selected E2 to provide for travel management services for GSA
Associates. The FAS-PMO subsequently issued a task order to CWGT in January 2005 to
implement E2 within GSA.

The FAS-PMO is responsible for ensuring FISMA requirements, including policies and
procedures established with the GSA IT Security Program, have been implemented for the
Government-wide E2 system. Within GSA, the OCFO is responsible for ensuring the
implementation of adequate security controls for its specific implementation of E2. CWGT is
responsible for providing adequate physical security for both the major application (E2
Solutions) and the general support system that hosts it and for providing disaster recovery
services. A diagram of roles and responsibilities related to the security portion of GSA’s
implementation of E2 is provided in Appendix B.

Results in Brief

The GSA-OCFO, with assistance from the FAS-PMO, has applied many of the security
measures required by GSA’s IT Security Program with the Agency’s implementation of the E2
system. Our testing for 99 of 171 required baseline security controls found no reportable
conditions for 88 controls. However, specific management, operational, and technical controls
required with FISMA should be strengthened to ensure that sensitive financial and travel
information is adequately safeguarded and the confidentiality, integrity, and availability of the
E2 system is maintained. Opportunities exist to strengthen certification and accreditation (C&A)
and risk management processes by addressing not only the Government-wide solution but also
risks and vulnerabilities specific to GSA’s IT systems environment. This would better enable
GSA to mitigate threats that could lead to system exploits and to protect sensitive information.
We also found the opportunity to improve GSA’s ability to effectively prevent, detect, and
recover from an attack by ensuring that agreements have been developed for each
interconnection with E2. Contractor oversight can also be improved by ensuring that required
personnel background investigations are completed and security awareness training is taken prior
to providing contractors with full system access. Further, actions should be taken to strengthen
system security by implementing two-factor authentication for user access to E2 and by
restricting access to privileged procedures and user training materials to those with a need-to-
know. Additional improvements can also be made to strengthen system security by assessing
whether use of secure e-mail addresses for resetting user account passwords and whether use of
an official approved web domain for accessing the system is needed. Opportunities also exist to
strengthen configuration management processes for E2 by addressing identified technical
weaknesses with system databases and device configurations. This would provide extra
protection for the system and its sensitive information.




                                               ii
Recommendations

To better manage IT security risks with the GSA implementation of E2 and ensure the
confidentiality, integrity and availability of this system and the data it maintains, we recommend
that the Office of the Chief Financial Officer (OCFO) work with the Federal Acquisition Service
(FAS) Program Management Office (PMO) and the Office of the Chief Information Officer
(OCIO), to take actions to strengthen:

   1. Management controls by:

   a) Ensuring that controls for and risks with GSA’s implementation of E2, specific to the
      GSA IT systems environment, have been adequately addressed.
   b) Establishing a Memorandum of Understanding (MOU) and Interconnection Security
      Agreement (ISA) for the E2 interconnection with the Global Distribution System (GDS).

   2. Operational controls by:

   a) Obtaining assurance that an adequate process is in place and being used to effectively
      track the completion of background investigations and annual security awareness training
      prior to providing contractors with full access to GSA data.

   3. Technical controls by:

   a) Identifying those users with privileged access and expedite implementation of two-factor
      authentication for those users.
   b) Restricting access to privileged procedures to those with a need-to-know.
   c) Ensuring that GSA-Chief Information Officer (CIO) hardening guides are applied.
   d) Disabling unnecessary functionality to eliminate the threat posed by providing non-
      essential services and ensuring that software running on the networked servers is properly
      patched to their most recent versions.
   e) Determining whether a .com domain is necessary for the proper performance of the
      operation of the E2 Solutions (E2) travel system, or whether an approved web domain,
      such as .gov, .mil, or .Fed.us should be used.
   f) Developing IT Security procedures to restrict the transmission of sensitive information,
      including password resets, to government e-mail addresses.

Management Comments

Our recommendations are directed to the GSA-CFO and focus on specific improvements for
management, operational, and technical controls needed to strengthen security for GSA’s
implementation of the e-Government Travel Services E2 Solutions system. The CFO generally
agrees with our findings and recommendations, and a copy of the written management response
to our draft report is provided in Appendix G. Included in the management comments are views
from the FAS-PMO, who has responsibilities for ensuring that FISMA requirements are met for
the government-wide E2 Solutions also offered by GSA to other Federal agencies. As discussed
in our report, the GSA Office of the CFO is responsible for ensuring the implementation of



                                               iii
adequate security controls for the Agency’s implementation of the e-Government Travel
Services E2 Solutions system as GSA’s official travel management solution. With this FISMA
security audit, we also considered the key role of the GSA Senior Agency Information Security
Officer who is responsible, within the GSA IT Security Program, for ensuring that systems that
hold Federal data comply with all FISMA requirements and that controls for these systems are
risk-based and within reasonable cost for the benefit provided. Our position, as noted throughout
the report, is that GSA’s IT Security Program should ensure that risks are being managed with
GSA e-Government systems, including this e-Government Travel Services E2 Solutions system.
While some issues raised may require specific actions from the FAS-PMO for the government-
wide e-Travel solution, our audit did not include a focused assessment of government-wide
security requirements for e-Government systems or full capabilities of the broader e-Government
Travel Services E2 Solutions system offered by the FAS-PMO. Included in the CFO’s
comments to our draft report is a response from the FAS-PMO that indicates disagreement
related to two of our recommendations to the GSA-CFO.




                                               iv
                            FY 2009 OFFICE OF INSPECTOR GENERAL
                               AUDIT OF THE E2 TRAVEL SYSTEM
                                     SECURITY CONTROLS
                              REPORT NUMBER A080180/B/T/F09008

                                            INTRODUCTION

The Federal Information Security Management Act of 2002 (FISMA) provides a framework for
ensuring the effectiveness of information security controls over information resources that
support Federal operations and resources. It also includes for a mechanism to provide oversight
of Federal agency information security programs. FISMA directs Inspectors General to perform
an annual independent evaluation of their respective agency’s information security program and
controls for select systems. This report presents the results of our assessment of select
management, operational, and technical security controls required by FISMA for the E2
Solutions (E2) system. Appendix A provides our objective, scope, and methodology for the
audit.

E2 is a financial management Privacy Act System of Record 3 that is operated and maintained by
Carlson Wagonlit Government Travel (CWGT). It is one of three systems that the General
Services Administration (GSA) Federal Acquisition Service (FAS) Program Management Office
(PMO) offers for e-Gov Travel Service (ETS) and is designated by the Agency as “moderate
risk 4 .” In January 2005, the GSA Office of the Chief Financial Officer (OCFO) selected E2 as
the e-Travel system to provide travel services for the Agency. GSA implemented E2 in
December 2006. GSA travelers can access E2 directly from the Internet, or from behind GSA’s
network firewall. E2 processes sensitive but unclassified information, including personally
identifiable information (PII), financial data, credit card information, and transaction amounts.
GSA introduced miscellaneous reimbursement capabilities through E2 that are not associated
with official travel in October 2008. For GSA’s implementation of E2, the OCFO is responsible
for managing user accounts, including authorizing system access and approval routing, and for
implementing appropriate Agency travel policy. The FAS is responsible for working with
CWGT to make any approved system changes, for ensuring the contractor implements
appropriate security controls, and for managing the master contact with the ETS vendors.

In January 2006, the GSA Office of the Inspector General (OIG) Information Technology (IT)
Audit Office issued a letter report 5 that conveyed the results of our assessment of select
information security controls for E2 during Fiscal Year (FY) 2005. At that time, we found that
steps taken to implement GSA’s IT Security Program and FISMA requirements for E2 were not
always consistent with Agency policy and National Institute of Standards and Technology
(NIST) guidance. Specifically, required security controls and rules of behavior for third party
system interconnections had not been included in the system security plan or authorized as part
of the system Certification and Accreditation (C&A), and the system Plan of Action and
3
  A Privacy Act System of Record is a system containing information that is retrieved by an individual’s name or
other unique identifier assigned to the individual. This information is protected under the Privacy Act of 1974.
4
  For more information on system risk levels, refer to FIPS PUB 199, Standards for Security Categorization of
Federal Information and Information Systems, February 2004.
5
  FY 2005 Office of Inspector General Information Security Analysis of the Carlson Wagonlit eTravel System,
Report Number A050183/O/T/F06005, January 19, 2006.


                                                       1
Milestones (POA&M) did not include all known security weaknesses identified in the risk
assessment, security plan, and contingency plan test. We also reported that, while background
checks had been initiated for CWGT contractors supporting the system, those checks were not
always in line with GSA’s IT Security Policy. Vulnerability scanning conducted during our
previous audit also identified specific system security weaknesses that required actions to
strengthen system security.




                                             2
                                     RESULTS OF AUDIT

The General Services Administration (GSA) Office of the Chief Financial Officer (OCFO), with
the assistance of the Federal Acquisition Service (FAS) Program Management Office (PMO),
has applied many of the management, operational, and technical controls required by the Federal
Information Security Management Act of 2002 (FISMA) and the GSA Information Technology
(IT) Security Program for the E2 Solutions (E2) system. We tested 99 of 171 required baseline
security controls and found no reportable conditions for 88 controls. See Appendix C for a
detailed listing of the security controls tested. We have identified improvements that are needed
to enhance risk management practices and provide improved security for GSA’s implementation
of the E2 system.

Risk management practices for E2 can be improved by strengthening management controls
required for and risks specific to GSA’s implementation of the system. Management controls
can also be improved by ensuring that all needed risk assessment components, including threat
identification and threat likelihood levels, are assessed. This could ensure that potential threats
are addressed and reduce the likelihood that the system is exploited. Establishing agreements for
a group of external systems that interface with E2 would better assist GSA with defining
responsibilities for and coordinating actions in the event of a security incident. We also found
that improvements can be made to enhance operational controls for GSA’s implementation of
E2. For instance, contractors are being provided full system access prior to the successful
completion of background investigations and security awareness training. Opportunities also
exist to improve technical controls for GSA’s implementation of E2, such as implementing two-
factor authentication for user access to the E2 system to more securely authenticate users to
better protect GSA travel information and restricting access to privileged information to those
with a need-to-know. Additional technical control improvements can be made to strengthen
system security, including assessing whether use of an approved web domain should be required
for accessing E2 and whether use of a secure e-mail address for account password reset is
needed. Configuration management vulnerabilities that could affect the confidentiality, integrity,
and availability of GSA's data were also identified. Technical weaknesses with the system
database and device configuration demonstrate the need to strengthen configuration management
practices to provide additional protection for the system and its sensitive data, including applying
critical patches to the E2 servers. Throughout our audit we have kept E2 system security
officials informed of our security control test results, and system security officials have either
taken or informed us that they plan to take actions to mitigate risks related to several
vulnerabilities identified in our testing. For example, system security officials are taking actions
to enhance the security posture of E2 by disabling non-essential web server functionality,
applying appropriate patches, securing account log-in procedures, and planning to review its
password policy. Given the importance of this system and the travel and financial information it
maintains, the OCFO and FAS-PMO should take additional steps to strengthen management,
operational, and technical controls, to better manage risks with this important system.




                                                 3
Management Controls

Management security controls consist of safeguards or countermeasures that focus on the
management of risk and information system security and include certification 6 and accreditation7
(C&A), risk assessment, security planning, and integrating security requirements into system and
services acquisition processes. The OCFO and FAS-PMO have applied many of the
management controls required with FISMA for E2 (see Appendix C). However, we found the
need to strengthen specific controls to ensure that risks were being managed for GSA’s
implementation of E2. The certification and accreditation (C&A) completed for E2 was for the
Government-wide solution offered to any Federal agency and did not include controls
implemented for or risks with GSA’s implementation of E2, specific to the GSA IT systems
environment. By not assessing controls for specific risks with GSA’s implementation of E2,
threats may not be properly identified, prioritized, and mitigated, possibly leaving the Agency
without necessary compensating controls in place to reduce the likelihood of system exploits.
We also identified one instance where E2 did not have needed agreements to specify
responsibilities and controls for establishing, operating, and securing a system interconnection.
Specific controls should be identified and stipulated to help prevent, detect, and deter from
potential system security breaches.

Certification and Accreditation Completed for E2 Did Not Consider Controls for and Risks with
GSA’s Specific IT Systems Environment

A C&A was completed for the CWGT Government-wide E2 system solution that considered the
complete array of security controls that are available to any Federal agency. Under the ETS
initiative, Federal agencies first select one of the three systems available and then decide which
features to implement from the overall solution offered by the vendor. We found that GSA has
not yet documented the specific controls for the Agency’s implementation of E2, and therefore,
has not considered unique threats for GSA’s operational environment. While some steps have
been undertaken to assess risks for GSA’s implementation of E2, specific actions are needed to
strengthen the security posture of the system and ensure that risks within GSA’s IT systems
environment are adequately prioritized and mitigated to better protect sensitive data and
transactions.

FISMA requires the head of each agency to provide information security protections
commensurate with the risk and magnitude of the harm resulting from unauthorized access, use,
disclosure, disruption, modification, or destruction of information collected or maintained by or
on behalf of the agency. It also requires this to be done for information systems used or operated
by an agency or by a contractor of an agency or other organization on behalf of an agency. GSA
information systems are required to be certified and accredited in accordance with National
Institute of Standards and Technologies (NIST) Special Publication (SP) 800-53, NIST SP 800-
37, and the GSA Information Technology (IT) Security Policy. An Authorizing Official (AO) is
required to authorize, in writing, information systems before they go into operation, accept any

6
  Certification refers to the process utilized to determine the extent to which controls are implemented correctly and
operating as intended.
7
  Accreditation is the official management decision to authorize operation of an information system and to explicitly
accept the risk to agency operations, assets, or individuals based upon the implementation of controls.


                                                          4
identified and unmitigated risks, and identify any deviations from the GSA IT Security Policy.
These unmitigated risks and deviations from the IT Security Policy are known as residual risks.

System security documentation for E2 included information on baseline security requirements
and system categorization but did not address system boundaries or threat identification, which
would identify all potential threats to the system. Additionally, an e-authentication risk
assessment, which included risk tolerance criteria, a risk transaction summary, and risk analysis,
was performed in September 2004. However, these risk management actions are not sufficient
because vulnerabilities or risks specific to GSA’s implementation of E2 have not been identified.
Risks must be assessed with the certification and accreditation for GSA’s systems to ensure that
security controls addressing associated risks have been appropriately implemented. Unidentified
threats can lead to system exploits, leaving GSA’s data at risk.

GSA security guidance on mitigating risk describes the key activities in managing enterprise-
level risk for GSA’s IT systems to ensure controls are implemented correctly and operating as
intended. By relying solely on the C&A conducted on the Government-wide solution, GSA has
not identified any unmitigated risks or deviations from the Agency’s IT Security Policy, such as
not having implemented two-factor authentication and not having written management
authorization for every system interconnection. A consolidated C&A has benefits, including
reducing Federal agency resources to document and assess the effectiveness of security controls
generic to the E2 Government-wide solution. However, it is important to ensure that the controls
for and risks with E2, as implemented within GSA’s IT systems environment, have been
addressed to evaluate risks specific to GSA and determine an overall level of risk the Agency is
willing to accept. Reconsidering specific residual risks with E2 operations could also guide GSA
in implementing compensating controls that may be needed to protect Agency travel and
financial data.

Additional Actions Are Needed to Establish Required System Interconnection Agreements

Interconnections 8 are used to provide E2 users with travel availability and pricing information.
The system feeds financial data captured on travel transactions through an interconnection to the
Agency financial System of Record, Pegasys. See Appendix D for a diagram of interconnections
with E2. E2 relies on the Global Distribution System (GDS), multiple private companies
providing specific pricing, scheduling, and transaction information for airlines, hotels, and other
services. The GDS is a commercial system that processes sensitive information, including
charge card account numbers and other PII. This review identified that an ISA/MOU has not
been established for the interconnection with the GDS.

The GSA IT Security Policy requires written management authorization based on an acceptable
level of risk before connecting an Agency IT system to other systems. This written authorization
should define the rules of behavior and controls that must be maintained for the system
interconnection. NIST recommends that information technology (IT) systems should develop an
Interconnection Security Agreement (ISA) (or an equivalent document) to document the
technical requirements of the interconnection. These agreements help to guide the planning,

8
 NIST defines system interconnection as the direct connection of two or more IT systems for the purpose of sharing
data and other information resources.


                                                        5
establishment, maintenance, and termination of system interconnections where sensitive data and
transactions incur risks. An ISA specifies the technical and security requirements for
establishing, operating, and securing an interconnection. An MOU defines the purpose,
identifies relevant authorities, specifies responsibilities, and defines the terms of the agreement.
The development of these documents represents a proactive approach to security, as system
management is able to make plans for prevention, deterrence, and detection of attacks rather than
delaying decisions or appropriate actions until after a breach of security.

Our January 2006 FISMA letter report on the CWGT E2 Solutions Government-wide system
identified that an ISA/MOU was not in place for the E2 interconnection with the GDS. In
response to that report, this finding was listed in the E2 system Plan of Action and Milestones
(POA&M). While the updated POA&M reports that an ISA/MOU had been developed in June
2007, our current review found that the ISA/MOU was not yet in place for the E2/GDS
interconnection. According to system management, these agreements were not developed
because the GDS rely on commercial legacy systems that are used by travel agencies to make
reservations for official and leisure travel. Without interconnection agreements in place for GDS
systems, the rules for interconnecting systems and for protecting data shared between E2 and
other feeder systems have not been identified. Consequently, it may be more challenging to
prevent, deter, detect, and recover from an attack, as notification of the attack may be delayed
and proper audit trails may not be captured and maintained, as necessary.

Operational Controls

Operational security controls address methods that are primarily implemented by people, as
opposed to systems, and include measures such as contingency planning, maintenance,
configuration management, awareness and training, incident response, media protection, physical
and environmental protection, system and information integrity, and personnel security. While
security officials have implemented many of the operational controls required with FISMA for
E2 (see Appendix C), we identified opportunities to strengthen operational controls by ensuring
that contractor background investigations are completed and security awareness training is
provided to contractors prior to providing them with full system access.

Providing Contractors with Full System Access Prior to Successful Completion of Background
Investigations Increases Risk to the System

GSA’s IT Security Policy requires that background investigation requirements for access to GSA
information systems, including contractor systems containing GSA information, should be
completed in accordance with the GSA Handbook ADM 9732.1C, Suitability and Personnel
Security. Additionally, contractors working on Federal systems need to have a National Agency
Check with Credit Inquiries (NACIC) equivalent or higher background investigation and
fingerprint checks completed prior to being granted full access to a system. While waiting on the
background investigations, contractors can be given temporary access, limited to a need-to-
know, after successful fingerprint checks have been received. The Project Manager and/or
Information Systems Security Officer (ISSO) are responsible for identifying all contractors who
need background investigations and for ensuring that they are successfully completed prior to
providing contractor personnel with full system access. Our review of E2 found that there



                                                 6
currently is no confirmation of successful completion of fingerprint checks or proof of
adjudication and that there is no process in place to ensure that background investigations were
both requested and completed. Subsequently, contractors are being provided with full system
access prior to having their background investigations completed.  
 
According to system security officials, CWGT conducts employment history, education
verification, and criminal background checks on employees during the hiring process; however,
this does not satisfy GSA’s requirements. Because CWGT contractors were provided full system
access prior to the completion of required background investigations, the E2 System is operating
at greater risk of an insider attack.

Improvements to Verify Security Awareness Training for Contractor Personnel Are Needed

Agencies are required to provide appropriate information system security training to personnel,
including contractors and other users of information systems, prior to allowing them to perform
their assigned duties. Agencies must also document and monitor individual information system
security training activities, including basic security awareness training and role-based
information system security training. This training is necessary to inform users of information
security risks associated with their activities as well as their responsibilities in complying with
Agency policies and procedures designed to reduce these risks. GSA’s IT Security Policy also
requires all GSA employees and contractors to complete security awareness and privacy training
annually to ensure that GSA, other agency, and contractor support staff involved in the
management, design, development, operation, and use of IT systems are aware of their
responsibilities for safeguarding GSA systems and information. While CWGT has implemented
a tracking system to record the details of security training provided to its employees, for the
sample we tested, CWGT was unable to verify that security awareness training was completed
for all contractor personnel with system access. Our analysis of contractor security awareness
training records reflected that processes were not in place to ensure records were properly
maintained to verify the status of security awareness training. This has left GSA without
confidence that adequate training was completed by CWGT prior to providing its staff with
system access. Completion of GSA’s security awareness training is important to ensure that
everyone with access to the system knows their responsibilities for complying with Agency
policies and procedures and is aware of their responsibilities related to safeguarding the system
and its sensitive data.

Technical Controls

Technical controls focus on security capabilities executed by computer systems and include
access controls, audit and accountability, identification and authentication, and system and
communications protection. While the configuration settings control is identified by NIST as an
operational control, technical control weaknesses we identified were related to configuration
management, so it is included in this section of the report. Many of the technical controls
required with FISMA have been implemented for E2 (See Appendix C). However, we found
that opportunities exist to improve technical controls by implementing two-factor authentication
and restricting access to privilege procedures to those with a need-to-know. We also identified
configuration weaknesses with the operating system and database, which left system components



                                                7
vulnerable to attacks that could lead to unauthorized access and a compromise of the E2 system.
Additionally, security can be strengthened by determining whether use of an approved web
domain should be required to access E2 and whether use of a secure e-mail account should be
required to reset user passwords.

Implementing Two-Factor Authentication Would More Securely Authenticate Users to the
System to Better Protect GSA Employee Travel and Financial Information

Authentication controls are used to verify the identity of a user, process, or device to allow
access to resources in an information system. Office of Management and Budget (OMB)
Memorandum M-07-16 requires that all Federal information systems only allow remote access
with two-factor authentication, where one of the factors is provided by a device separate from the
computer gaining access. CWGT began offering two-factor authentication with E2 in September
2008. At the time of our review, GSA had not yet selected two-factor authentication for its
implementation of the E2 system. Currently, E2 users in GSA access the system by using user
name and password; thus, authentication to the system is done based only on what the user
knows. GSA’s implementation of E2 does not augment authentication methods using either of
the other two factors: (1) what the user has or (2) who the user is. Simple username and
password authentication leaves users susceptible to attacks that are preventable with two-factor
authentication, such as key stroke logging. One reason for the delay in implementing two-factor
authentication for E2 is that the OCFO is waiting on the GSA Agency-wide solution for two-
factor authentication. While current plans call for the GSA Chief Information Officer (CIO) to
roll-out two-factor authentication in September 2009, implementing two-factor authentication
Agency-wide has been delayed over the past few years. Until two-factor authentication has been
implemented, it is easier for an unauthorized user to access, modify or disclose sensitive
information in E2 solutions.

The FAS-PMO completed an eAuthentication risk assessment for E2, which recommended the
use of Level 3 authentication for users with access to or authority over 20 or more user accounts,
in September 2004. This level of authentication requires two-factor authentication of users with
this type of privileged access. System administrators have access to the profiles of other users,
which may contain PII. At a minimum, GSA should expedite implementation of two-factor
authentication for E2 users with access to 20 or more user accounts.

Access to Procedures for Privileged Users Are Not Restricted to Those with a Need-to-Know

While authentication controls verify a user’s identity, authorization controls establish what a user
is authorized to do and what privileges a user should have in an information system. For E2, a
system administrator (depending on his/her level) can manage users, configure major and minor
customer settings and define routing rules and approvers. Our review identified that all system
users, through the system help feature, had access to system administrator procedures rather than
restricting them to only those with a need-to-know. According to a CWGT official, these
procedures were not hidden because the E2 Knowledge Base 9 was deliberately designed to
contain all aspects of the system that are available for E2 users and to allow all E2 users this

9
 The Knowledge Base is a database within E2 containing information related to all of the actions that are permitted
within the system.


                                                         8
access. The CWGT official also stated that the system administrators’ procedures in the E2
Knowledge Base were not hidden because only system administrators are able to actually
perform the functions and because the Knowledge Base does not include procedures for
performing Carlson-level system administrator functions, which controls the entire system. We
also found that training procedures that include information on privileged system administer
functions were available to those without a need-to-know, as these procedures were posted on
GSA’s Intranet and were made available to anyone with access to the Intranet, regardless of
whether a person is an authorized E2 user. While granting knowledge of how to use E2 is
necessary for using the system, by allowing access to privileged system administrators’
procedures, a user may use explicit knowledge gained to devise a malicious attack by making
unauthorized additions, modifications, or deletions to GSA’s E2 data and/or processes.
Subsequent to discussing our findings with security officials, the OCFO has removed the
privileged training procedures from GSA’s Intranet. However, to fully address this weakness,
GSA should also ensure that access to privileged procedures within the system is restricted to
those with a need-to-know.

Prompt Remediation of Configuration Management Vulnerabilities Could Reduce Risks from
Known Vulnerabilities

System security officials have taken proactive steps to secure E2 system components, such as
performing quarterly vulnerability scanning, and tracking and documenting any system changes.
However, insecure configuration settings of system components have placed the confidentiality,
integrity, and availability of the E2 system and its data at risk. While our testing did not identify
any issues with the web application security, we found vulnerabilities with database hardening
and system device configurations detailed in the sections that follow.

Database Security
GSA’s IT Security Policy requires that all information systems be securely hardened and patched
before being put into operation, and NIST SP 800-53 requires the organization to configure the
security settings of information technology products to the most restrictive mode consistent with
operational requirements. Additionally, GSA security guidance requires that the system enforce
controls to ensure that the password for user accounts not be the same value as the username and
that information systems should be designed to require passwords to be changed every 90 days.
While E2 databases should have been securely configured to meet these requirements, our testing
found two security vulnerabilities, one high level vulnerability and one medium level
vulnerability, on the E2 Oracle database servers. Specifically, we found Oracle user accounts
with the password the same as the user name and Oracle accounts with expired passwords.
Security vulnerabilities found with the E2 databases were due to insufficient oversight of the
contractor. Specifically, system security officials noted that the insecure database passwords
may have resulted from a password reset by a database administrator. Because weak passwords
provide one of the most common methods for gaining unauthorized system access, which could
lead to a compromise of confidentiality, integrity, and or availability of the travel services
provided by GSA’s implementation of E2, the OCFO should work with the FAS-PMO to ensure
the database is configured in accordance with GSA security guidance. Additional details of
configuration management vulnerabilities identified with our technical database scanning are
noted in Appendix E.



                                                 9
Network Security
As discussed previously, GSA’s IT Security Policy requires all systems to be securely hardened
before being put into operation. The policy also requires information systems to protect the
confidentiality of transmitted sensitive information. Additionally, NIST SP 800-53 requires that
federal information systems be securely configured to provide only the essential capabilities
necessary to support organizational operations and that the organization promptly install newly
released security updates after testing for adverse effects. Our network-based vulnerability
testing identified that system hardening efforts taken by the security officials were not sufficient
to ensure that all devices were appropriately hardened, as we found two high and two medium
level vulnerabilities on 11 of the 17 system devices tested. Specifically, we identified that all
unnecessary services had not been removed or turned off and that patches had not been applied
in a timely manner. Unnecessary services running on the system and untimely patching of
devices on the network leave the system vulnerable to denial of service, unauthorized access, and
remote command execution of vulnerabilities. In order to address identified system device
security weaknesses, system security officials should strengthen configuration management
processes to ensure that non-essential services are disabled and that the software running on the
networked servers are patched timely. Additional details of configuration management
vulnerabilities identified with our technical network-based security scanning are noted in
Appendix F.

GSA Should Specify if Approved Domain Is Required for Accessing E2

Under FISMA, approved websites with domains that identify government systems, including
“.gov”, “.mil”, or “.Fed.us”, should be used in performing agency functions to ensure a clear,
unambiguous public notification of the Agency’s involvement in or sponsorship of the website.
FISMA and OMB have previously recognized a need to use other domains in certain limited,
approved circumstances for proper performance of agency functions. GSA is allowing access to
E2 through a .com website without an explicit written determination by the GSA Administrator
of the need to use an unapproved domain to perform Agency travel functions, as E2 has been
viewed as a commercial system and service purchased for government use rather than a
government system. The efficient, effective, and consistent use of Federal agency public
websites is important to promote a more citizen centered government and to provide added
confidence, integrity, and quality to the information provided by Federal agencies over the
Internet.  The use of non-government domains could also increase risks of phishing 10 attacks
where deception is used to play on the public’s trust of the legitimate entity. To mitigate the
risks associated with the Agency’s external web presence, GSA should determine whether a
Federal web domain is necessary for the proper performance of this Agency function.  

Use of Secure Government E-mail Accounts When Resetting E2 User Passwords Could Reduce
System Risks

According to the United States Computer Emergency Readiness Team (US-CERT), users should
not use free e-mail service providers when messages may contain sensitive information. Since

10
  According to US-CERT, the United States Computer Emergency Readiness Team, phishing is the act of stealing
personal information via the Internet for the purpose of committing financial fraud.


                                                     10
users are not paying for free e-mail accounts, the free e-mail service providers may not have a
strong commitment to protecting the user from various threats and the security features they offer
might not meet government standards. Our review found that current processes for resetting E2
user account passwords leaves the system open to undue risk. When an E2 user needs to reset
their password, they are required to call the E2 Help Desk. However, when calling the Help
Desk, a user can verbally give the Help Desk operator an e-mail address to have the reset
password sent to, even if the e-mail address is not previously identified in the user’s profile.
Additionally, with GSA’s implementation of E2, users are permitted to modify the primary e-
mail address from their GSA e-mail address to an address provided by a free e-mail service, such
as Yahoo!, Hotmail, or Gmail. The password reset e-mail provides a link to re-establish the
user’s security profile and requests that the user respond to two security questions, as long as the
user has set up the security questions as part of their profile. If not, the user is not required to
respond to any security questions to reset their password. CWGT officials indicated that the
system was designed this way because some agencies do not use government e-mail addresses
and that a business case would have to be developed, and a task order put in place, to require a
system change. Further, there is no Agency guidance prohibiting the use of free e-mail services
when resetting E2 user passwords, or transmitting PII. To address this issue, the OCFO should
require that the transmission of sensitive information, including password resets, be restricted to
a GSA e-mail address.

Next Steps

A November 18, 2008 Office of General Counsel (OGC) memorandum provided a legal opinion
that addressed questions raised by the GSA Senior Agency Information Security Officer
(SAISO) regarding whether or not specific IT systems that are currently included in the GSA-
CIO's FISMA inventory qualify as "Federally-Controlled Information Systems." The legal
opinion considered the E-Travel systems, NETWORX Operational Support Systems, GSA
SMARTPAY information systems, WITS3 Operational Support System, and two project
management systems used by PBS. In this memorandum, the OGC concluded that only the PBS
project management systems qualify as FISMA systems, as defined by the Federal Acquisition
Regulation (FAR). This legal opinion seems to view FISMA information security requirements
as being applicable only to "Federally Controlled Information Systems" per the FAR as opposed
to the FISMA definition of applicability to "information systems used or operated by an agency
or by a contractor of an agency or other organization on behalf of an agency." Therefore, it was
considered a contract administration issue rather than a risk management challenge for GSA.
Recent OMB feedback to the SAISO stated that systems that hold Federal data should comply
with all FISMA requirements and that controls for these systems should be risk-based and within
a reasonable cost for the benefit provided. With this informal correspondence on the question
raised regarding contractor operated systems, OMB emphasizes that GSA should have a program
for managing the risk with these types of systems. This should include such things as
determining the risk and the controls that are needed and ensuring that all IT security controls are
correctly listed in contracts and that there are methods for the agency to check that contractors
are complying with those requirements on an on-going basis.




                                                11
CONCLUSIONS

The OCFO and FAS-PMO have applied many of the management, operational, and technical
controls established with FISMA and GSA’s IT Security Program for E2, a “moderate” risk
system that maintains travel and financial data, including PII. Our review of 99 of 171 specific
security controls found the need for improvement in 11 of those controls, approximately 11% of
controls tested. While Agency officials are taking actions to enhance security for E2, we found
the need to strengthen specific management, operational, and technical controls to maintain the
security of the system and its sensitive data.

Risk management practices can be improved by strengthening management controls to ensure
that security controls required for and risks specific to GSA’s implementation of E2 are
considered and that that all needed risk assessment components have been addressed. We also
found the need to establish an ISA/MOU for the E2/GDS interconnection. The Agency can
enhance operational readiness by ensuring that background investigations for contractors are
performed and that those contractors have completed annual security awareness training prior to
granting them full access to the E2 system. Additionally, applying additional technical controls,
such as implementing two-factor authentication and restricting access to privileged information
on system administrative procedures, can strengthen system security. Opportunities also exist to
strengthen technical controls by assessing whether the use of an approved web domain should be
required for accessing E2 and whether use of a secure e-mail address for account password reset
is needed. Finally, securely configuring E2 databases and other system components would help
to ensure the protection of the system and its data. Strengthening management, operational, and
technical controls, as noted in this report, can facilitate ongoing efforts to ensure that E2, and the
sensitive travel and financial data it maintains, are adequately secured.

                                    RECOMMENDATIONS

To better manage IT security risks with the GSA implementation of E2 and ensure the
confidentiality, integrity and availability of this system and the data it maintains, we recommend
that the Office of the Chief Financial Officer (OCFO) work with the Federal Acquisition Service
(FAS) Program Management Office (PMO) and the Office of the Chief Information Officer
(OCIO), to take actions to strengthen:

   1. Management controls by:

           a) Ensuring that controls for and risks with GSA’s implementation of E2, specific to
              the GSA IT systems environment, have been adequately addressed.
           b) Establishing a Memorandum of Understanding (MOU) and Interconnection
              Security Agreement (ISA) for the E2 interconnection with the Global Distribution
              System (GDS).




                                                 12
   2. Operational controls by:

           a) Obtaining assurance that an adequate process is in place and being used to
              effectively track the completion of background investigations and annual security
              awareness training prior to providing contractors with full access to GSA data.

   3. Technical controls by:

           a) Identifying those users with privileged access and expedite implementation of
              two-factor authentication for those users.
           b) Restricting access to privileged procedures to those with a need-to-know.
           c) Ensuring that GSA-Chief Information Officer (CIO) hardening guides are applied.
           d) Disabling unnecessary functionality to eliminate the threat posed by providing
              non-essential services and ensuring that software running on the networked
              servers is properly patched to their most recent versions.
           e) Determining whether a .com domain is necessary for the proper performance of
              the operation of the E2 Solutions (E2) travel system, or whether an approved web
              domain, such as .gov, .mil, or .Fed.us should be used.
           f) Developing IT Security procedures to restrict the transmission of sensitive
              information, including password resets, to government e-mail addresses.

                               MANAGEMENT COMMENTS

Our recommendations are directed to the GSA-CFO and focus on specific improvements for
management, operational, and technical controls needed to strengthen security for GSA’s
implementation of the e-Government Travel Services E2 Solutions system. The CFO generally
agrees with our findings and recommendations, and a copy of the written management response
to our draft report is provided in Appendix G. Included in the management comments are views
from the FAS-PMO, who has responsibilities for ensuring that FISMA requirements are met for
the government-wide E2 Solutions also offered by GSA to other Federal agencies. As discussed
in our report, the GSA Office of the CFO is responsible for ensuring the implementation of
adequate security controls for the Agency’s implementation of the e-Government Travel
Services E2 Solutions system as GSA’s official travel management solution. With this FISMA
security audit, we also considered the key role of the GSA Senior Agency Information Security
Officer who is responsible, within the GSA IT Security Program, for ensuring that systems that
hold Federal data comply with all FISMA requirements and that controls for these systems are
risk-based and within reasonable cost for the benefit provided. Our position, as noted throughout
the report, is that GSA’s IT Security Program should ensure that risks are being managed with
GSA e-Government systems, including this e-Government Travel Services E2 Solutions system.
While some issues raised may require specific actions from the FAS-PMO for the government-
wide e-Travel solution, our audit did not include a focused assessment of government-wide
security requirements for e-Government systems or full capabilities of the broader e-Government
Travel Services E2 Solutions system offered by the FAS-PMO. Included in the CFO’s
comments to our draft report is a response from the FAS-PMO that indicates disagreement
related to two of our recommendations to the GSA-CFO.




                                               13
Recommendation #1b calls for the GSA-CFO to work with the FAS-PMO and the GSA-CIO to
establish a Memorandum of Understanding (MOU) and an Interconnection Security Agreement
(ISA) for the E2 Interconnection with the Global Distribution System (GDS). As indicated with
the CFO’s management response, the FAS-PMO disagreed with this recommendation, stating
that the GDSx application interface is considered within the E2 System boundary and that
CWGT does not directly connect to the GDS via a connection type that requires an ISA/MOU.
We maintain that these agreements are needed to adequately secure GSA’s systems and data
under the provisions of FISMA. By gaining assurance that the FAS-PMO has established all
needed MOUs/ISAs related to the government-wide solution provided to GSA, the CFO will be
better equipped to manage security for GSA’s implementation of E2. Attention to these critical
agreements will also help the CFO to prevent, detect, deter, and recover from a compromise of
GSA financial or sensitive travel data because of a security breach with an interconnecting
system.

Recommendation #3e also calls for the GSA-CFO to work with the FAS-PMO and GSA-CIO to
determine whether a .com domain is necessary for the e-Government Travel Services E2
Solutions system. In the CFO’s management response, the FAS-PMO disagreed with this
recommendation, stating that ETS vendors do not fall under the category of a Federal agency
public website, as defined by OMB. We maintain the need for the CFO to take actions to
address risks identified by our audit, including following criteria for a Federal agency public
website since E2 is operated by an Agency, contractor, or other organization on behalf of the
Agency. A decision as to whether or not it is acceptable to access E2 through a .com website
rather than through a .gov, .mil, or .Fed.us website should be made to determine whether or not
the Agency may be able to leverage potential security enhancements.

                                   INTERNAL CONTROLS

As discussed in the objective, scope, and methodology section of our report, which is shown in
Appendix A, the objective of our audit was to determine if GSA has implemented management,
operational, and technical security controls to effectively manage specific risks with a travel and
financial management system which holds PII in accordance with the Federal Information
Security Management Act of 2002 (FISMA) and the Agency’s Information Technology (IT)
Security Program. If not, what additional actions are needed to better manage IT security risks
for the system? As such, we assessed the effectiveness of implementation of the requirements of
FISMA and the policies and procedures established with GSA’s IT Security Program. This audit
included a review of selected management, operational, and technical controls for “moderate
risk” systems, as identified in National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-53, Recommended Security Controls for Federal Information Systems,
Revision 2, December 2007. We did not test all controls required by NIST or detailed security
requirements established with GSA’s IT Security Program for E2. The Results of Audit and
Recommendations sections of the report state, in detail, the need to strengthen specific
management, operational, and technical controls with E2.




                                                14
                       FY 2009 OFFICE OF INSPECTOR GENERAL
                          AUDIT OF THE E2 TRAVEL SYSTEM
                                SECURITY CONTROLS
                         REPORT NUMBER A080180/B/T/F09008

              APPENDIX A – OBJECTIVE, SCOPE, AND METHODOLOGY

This interim audit report on information security of the General Services Administration (GSA)
implementation of the E2 Solutions (E2) system was conducted under an ongoing, broader scope
audit that we commenced in June 2008. This broader scope audit was divided into two phases.
The first phase involved a review of the implementation of select security controls established
under the Federal Information Security Management Act of 2002 (FISMA) and GSA’s
Information Technology (IT) Security Program for GSA’s implementation of E2. The second
phase will assess GSA’s implementation of E2 to determine how well the system is meeting
management and user requirements and the extent to which the system has achieved intended
goals and benefits associated with transitioning to an e-Government e-Travel system. We will
also determine whether GSA’s implementation of E2 provides for efficient, effective, accurate,
and secure travel transactions, including protection of personally identifiable information (PII)
and other sensitive data such as Agency financial and travel information. Results of the second
phase of the audit will be issued in a separate report.

The objective of our audit of information security for E2 was to determine if GSA has
implemented management, operational, and technical security controls to effectively manage
risks inherent with a travel and financial management system which holds PII, in accordance
with FISMA and GSA’s IT Security Program. If not, what additional actions are needed to
better manage IT security risks for the system? We focused our security review on the web
applications, databases, and associated system devices utilized by GSA to access and utilize E2
to provide travel management services. We did not include in this audit an assessment of the
effectiveness or efficiency of the system or its functions or the accuracy of the data the system
maintains.

To gather information on E2, we met with system security officials, including the Federal
Acquisition Service (FAS) Program Management Office (PMO) Information Systems Security
Officer (ISSO) and the Carlson Wagonlit Government Travel (CGWT) ISSO. We also reviewed
appropriate system security documentation, including the system certification and accreditation
package, the interconnection security agreement between GSA and CWGT, memorandum of
understanding, service level agreements, security incident reports transmitted to the US
Computer Emergency Readiness Team (US-CERT), results of quarterly technical testing,
quarterly updates to the system plan of action and milestones, security training records for
individuals with significant security responsibilities, the eAuthentication risk assessment, and the
privacy impact assessment. We performed a site visit to the primary data center in Plymouth,
Minnesota on October 21, 2008, to the Disaster Recovery site in Omaha, Nebraska on October,
24, 2008, and to the Iron Mountain backup tape facility in Bloomington, Minnesota on October
23, 2008. We performed physical security reviews at all three sites and used commercially
available tools and agreed upon procedures to test web application security, database security,
and operating system security for the E2 system.




                                               A-1
Our system tests included controls selected from each of the 17 families of controls identified by
National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53,
Recommended Security Controls for Federal Information Systems, Revision 2 that establishes
minimum information security requirements. Additionally, we reviewed applicable hardening
and procedural guides published by the GSA Chief Information Officer and internal security
procedures developed by the E2 contractor, CWGT. To assess controls for the system, we relied
on information security legislation, policy, standards, procedures, and guidance, including the
Office of Management and Budget (OMB) Circular A-130, Revised, Appendix III, Security of
Federal Automated Information Resources, November 2000; OMB Memorandum M-05-04,
Policies for Federal Agency Public Websites, December 2004; OMB Memorandum M-07-16,
Safeguarding Against and Responding to the Breach of Personally Identifiable Information, May
2007; OMB Memorandum M-08-23, Securing the Federal Government’s Domain Name System
Infrastructure, August 2008; Federal Information Processing Standards (FIPS) Publication
(PUB) 199, Standards for Security Categorization of Federal Information and Information
Systems, February 2004; FIPS PUB 200, Minimum Security Requirements for Federal
Information and Information Systems, March 2006; Federal Information Security Management
Act of 2002 (FISMA); NIST special publications related to risk management, security planning,
and certification and accreditation; GSA Information Technology (IT) Security Policy, CIO P
2100.1D, June 2007; and related GSA-CIO IT Security procedural guides, technical guides, and
standards.

We conducted this performance audit in accordance with generally accepted government
auditing standards between June 2008 and February 2009. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                               A-2
                       FY 2009 OFFICE OF INSPECTOR GENERAL
                          AUDIT OF THE E2 TRAVEL SYSTEM
                                SECURITY CONTROLS
                         REPORT NUMBER A080180/B/T/F09008

APPENDIX B – SECURITY ROLES AND RESPONSIBILITIES RELATED TO GSA’S
                      IMPLEMENTATION OF E2

                                                   GSA Administrator



                                                           GSA CIO



                                                         GSA SAISO


                     FAS CIO                                                   GSA CFO
FAS ISSM             – ETS AO


                                                                        ETS – E2          Adventure
                                                                         Carlson           Travel
                     FAS ETS PMO                                        Wagonlit
ETS ISSO             – System Owner                                    Task Order       TMC Services




           E2 User                 E2 Master
            Group                   Contract                                        Legend
                                Carlson Wagonlit

                                                                                       GSA Entity

                                                                                       Contractor
                      Carlson                  Iron
                      Wagonlit                Mountain                                 Other Entity
                       ISSO




                                                     B-1
                                                           FY 2009 OFFICE OF INSPECTOR GENERAL
                                                              AUDIT OF THE E2 TRAVEL SYSTEM
                                                                    SECURITY CONTROLS
                                                             REPORT NUMBER A080180/B/T/F09008

                                        APPENDIX C - GSA-OIG E2 FISMA AUDIT PRELIMINARY OBSERVATIONS

NIST 800-53                   NIST 800-53 Control              Observation (Condition)                             Criteria
Control Family
                              AC-2: Account Management                                     No reportable conditions identified.
                              AC-3: Access Enforcement                                     No reportable conditions identified.
                              AC-4: Information Flow                                       No reportable conditions identified.
                              Enforcement
                              AC-5: Separation of Duties                                 No reportable conditions identified.
       Access Controls (AC)




                              AC-6: Least Privilege            Access to privileged system administrative The information system enforces the
                                                               procedures has not been restricted based on a most restrictive set of
                                                               need-to-know.                                    rights/privileges/accesses needed by
                                                                                                                users (or processes acting on behalf of
                                                                                                                users) for the performance of specified
                                                                                                                tasks.
                              AC-7: Unsuccessful Login                                   No reportable conditions identified.
                              Attempts
                              AC-8: System Use Notification                                No reportable conditions identified.
                              AC-11: Session Lock                                          No reportable conditions identified.
                              AC-12: Session Termination                                   No reportable conditions identified.
                              AC-13: Supervision and Review                                No reportable conditions identified.




                                                              C-1
 NIST 800-53                         NIST 800-53 Control                Observation (Condition)                              Criteria
Control Family
                                     AC-17: Remote Access               While the Government-wide solution provides for The organization authorizes, monitors,
      Access Controls (AC) (cont.)




                                                                        the capability to implement two-factor and controls all methods of remote
                                                                        authentication, GSA has not yet implemented access to the information system.
                                                                        two-factor authentication within its IT system
                                                                        environment.
                                     AC-18: Wireless Access                                        No reportable conditions identified.
                                     Restrictions
                                     AC-19: Access Control for                                       No reportable conditions identified.
                                     Portable and Mobile Devices
                                     AC-20: Use of External                                          No reportable conditions identified.
                                     Information System
                                     AT-2: Security Awareness           GSA officials with significant security               The organization provides basic security
                                                                        responsibilities have been provided with security     awareness training to all information
      Awareness and Training (AT)




                                                                        awareness training. We were unable to verify          system users (including managers and
                                                                        that all contractors with privileged system and/or    senior executives) before authorizing
                                                                        database administration access have received          access to the system, when required by
                                                                        security awareness training due to deficiencies       system changes, and annually thereafter.
                                                                        with the contractor’s system for tracking training.
                                     AT-3: Security Training                                           No reportable conditions identified.
                                     AT-4: Security Training Records    We were unable to verify that all contractors with    The organization documents and
                                                                        privileged system and/or database administration      monitors individual information system
                                                                        access have received role-based training due to       security training activities including
                                                                        deficiencies with the contractor’s system for         basic security awareness training and
                                                                        tracking training.                                    specific information system security
                                                                                                                              training.




                                                                       C-2
 NIST 800-53                               NIST 800-53 Control                 Observation (Condition)                    Criteria
Control Family
                                           AU-3: Content of Audit Records                             No reportable conditions identified.
                  Audit & Accountability

                                           AU-4: Audit Storage Capacity                               No reportable conditions identified.
                                           AU-5: Response to Audit                                    No reportable conditions identified.
                                           Processing Failures
                          (AU)



                                           AU-6: Audit Monitoring, Analysis,                          No reportable conditions identified.
                                           and Reporting
                                           AU-9: Protection of Audit                                  No reportable conditions identified.
                                           Information
                                           AU-10: Non-Repudiation                                     No reportable conditions identified.

                                           CA-2: Security Assessments                                 No reportable conditions identified.
 Certification, Accreditation, and

         Assessments (CA)




                                           CA-3: Information System            Risks with the GDS Interconnections to     The organization authorizes all
             Security




                                           Connections                         E2 did not appear to be assessed and       connections from the information
                                                                               managed within the C&A.                    system to other information systems
                                                                                                                          outside of the accreditation boundary
                                                                                                                          through the use of system connection
                                                                                                                          agreements and monitors/controls the
                                                                                                                          system connections on an ongoing
                                                                                                                          basis.




                                                                      C-3
 NIST 800-53                                   NIST 800-53 Control                Observation (Condition)                              Criteria
Control Family
                                               CA-4: Security Certification       GSA has not completed a Certification and            The organization conducts an assessment of
                                                                                  Accreditation (C&A) of its implementation of E2,     the security controls in the information
  Certification, Accreditation, and Security




                                                                                  therefore, specific controls within GSA were not     system to determine the extent to which the
                                                                                  documented.                                          controls are implemented correctly,
                                                                                                                                       operating as intended, and producing the
           Assessments (CA) (cont.)




                                                                                                                                       desired outcome with respect to meeting the
                                                                                                                                       security requirements for the system.
                                               CA-5: Plan of Action and                                          No reportable conditions identified.
                                               Milestones
                                               CA-6: Security Accreditation       GSA has not completed a Certification and            The organization authorizes (i.e., accredits)
                                                                                  Accreditation (C&A) of its implementation of E2,     the information system for processing before
                                                                                  therefore, specific controls within GSA were not     operations and updates the authorization at
                                                                                  documented.                                          least every three years or when there is a
                                                                                                                                       significant change to the system. A senior
                                                                                                                                       organizational official signs and approves the
                                                                                                                                       security accreditation.
                                               CA-7: Continuous Monitoring                                       No reportable conditions identified.
                                               CM-3: Configuration Change                                        No reportable conditions identified.
             Configuration
             Management




                                               Control
                (CM)




                                               CM-4: Monitoring Configuration                                    No reportable conditions identified.
                                               Changes
                                               CM-5: Access Restrictions for                                     No reportable conditions identified.
                                               Change




                                                                                C-4
NIST 800-53                              NIST 800-53 Control                 Observation (Condition)                                 Criteria
Control Family
                                         CM-6: Configuration Settings        The databases and networked devices were not            The organization: (i) establishes mandatory
                                                                             configured in accordance with NIST guidance and         configuration settings for information
     Configuration Management (CM)




                                                                             GSA hardening standards.                                technology products employed within the
                                                                                 • Our automated vulnerability testing               information system; (ii) configures the
                                                                                     identified insecure configuration settings      security settings of information technology
                                                                                     (insecure database accounts, unnecessary        products to the most restrictive mode
                                                                                     services, and untimely patching) for the        consistent with operational requirements;
                  (cont.)




                                                                                     database and operating system that could        (iii) documents the configuration settings;
                                                                                     affect the confidentiality, integrity, and      and (iv) enforces the configuration settings in
                                                                                     availability of GSA’s data.                     all components of the information system.
                                         CM-7: Least Functionality           Networked devices were not configured in                The organization configures the information
                                                                             accordance with NIST guidance and GSA                   system to provide only essential capabilities.
                                                                             hardening standards.
                                         CM-8: Information System                                              No reportable conditions identified.
                                         Component Inventory
                                         CP-2: Contingency Plan                                               No reportable conditions identified.
             Contingency Planning (CP)




                                         CP-3: Contingency Training                                           No reportable conditions identified.

                                         CP-4: Contingency Plan Testing                                       No reportable conditions identified.
                                         and Exercises
                                         CP-5: Contingency Plan Update                                        No reportable conditions identified.
                                         CP-7: Alternate Processing Site                                      No reportable conditions identified.
                                         CP-10: Information System                                            No reportable conditions identified.
                                         Recovery and Reconstitution




                                                                           C-5
NIST 800-53                                NIST 800-53 Control                  Observation (Condition)                                 Criteria
Control Family
                                           IA-2 User Identification and                                   No reportable conditions identified.
     Identification and
      Authentication



                                           Authentication
                                           IA-4: Identifier Management                                    No reportable conditions identified.
            (IA)




                                           IA-5: Authenticator Management                                 No reportable conditions identified.

                                           IR-2: Incident Response Training                               No reportable conditions identified.
                 Incident Response (IR)




                                           IR-3: Incident Response Testing                                No reportable conditions identified.
                                           and Exercises
                                           IR-4: Incident Handling                                        No reportable conditions identified.

                                           IR-5: Incident Monitoring                                      No reportable conditions identified.

                                           IR-6: Incident Reporting                                       No reportable conditions identified.

                                           MA-2: Controlled Maintenance                                   No reportable conditions identified.
                        Maintenance (MA)




                                           MA-3: Maintenance Tools                                        No reportable conditions identified.

                                           MA-4: Remote Maintenance                                       No reportable conditions identified.

                                           MA-5: Maintenance Personnel                                    No reportable conditions identified.

                                           MP-2: Media Access                                             No reportable conditions identified.
        Protection (MP)




                                           MP-4: Media Storage                                            No reportable conditions identified.
            Media




                                           MP-5: Media Transport                                          No reportable conditions identified.
                                           MP-6: Media Sanitization and                                   No reportable conditions identified.
                                           Disposal


                                                                              C-6
 NIST 800-53                      NIST 800-53 Control                Observation (Condition)                           Criteria
Control Family
                                  PE-2: Physical Access                                        No reportable conditions identified.
                                  Authorizations
                                  PE-3: Physical Access Control                                No reportable conditions identified.
                                  PE-6: Monitoring Physical                                    No reportable conditions identified.
                                  Access
     Physical and Environmental




                                  PE-7: Visitor Control                                        No reportable conditions identified.
           Protection (PE)




                                  PE-8: Access Records                                         No reportable conditions identified.
                                  PE-9: Power Equipment and                                    No reportable conditions identified.
                                  Power Cabling
                                  PE-10: Emergency Shutoff                                     No reportable conditions identified.
                                  PE-11: Emergency Power                                       No reportable conditions identified.
                                  PE-12: Emergency Lighting                                    No reportable conditions identified.
                                  PE-13: Fire Protection                                       No reportable conditions identified.
                                  PE-14: Temperature and                                       No reportable conditions identified.
                                  Humidity Controls
                                  PE-15: Water Damage Protection                               No reportable conditions identified.
                                  PE-16: Delivery and Removal                                  No reportable conditions identified.
                                  PL-2: System Security Plan                                   No reportable conditions identified.
            Planning (PL)




                                  PL-3: System Security Plan                                   No reportable conditions identified.
                                  Update

                                  PL-4: Rules of Behavior                                      No reportable conditions identified.
                                  PL-5: Privacy Impact Assessment                              No reportable conditions identified.




                                                                    C-7
 NIST 800-53                    NIST 800-53 Control             Observation (Condition)                             Criteria
Control Family
                                PS-2: Position Categorization                                 No reportable conditions identified.
                                PS-3: Personnel Screening                                     No reportable conditions identified.
      Personnel Security (PS)




                                PS-4: Personnel Termination                                   No reportable conditions identified.
                                PS-5: Personnel Transfer                                      No reportable conditions identified.
                                PS-6: Access Agreements                                       No reportable conditions identified.
                                PS-7: Third-Party Personnel     Delays in completing background investigations.     The organization establishes personnel
                                Security                                                                            security requirements including security
                                                                                                                    roles and responsibilities for third-party
                                                                                                                    providers and monitors provider
                                                                                                                    compliance.
                                PS-8 Personnel Sanctions                                      No reportable conditions identified.
                                RA-2: Security Categorization                                 No reportable conditions identified.
                                RA-3: Risk Assessment           An assessment of risk to E2, as implemented         The organization conducts assessments of
      Risk Assessment (RA)




                                                                within GSA’s IT system environment, has not         the risk and magnitude of harm that could
                                                                been performed.                                     result from the unauthorized access, use,
                                                                                                                    disclosure, disruption, modification, or
                                                                                                                    destruction of information and
                                                                                                                    information systems that support the
                                                                                                                    operations and assets of the agency
                                                                                                                    (including information and information
                                                                                                                    systems managed/operated by external
                                                                                                                    parties).
                                RA-5: Vulnerability Scanning                                  No reportable conditions identified.




                                                                C-8
 NIST 800-53                                      NIST 800-53 Control             Observation (Condition)                          Criteria
Control Family
                                                  SA-2: Allocation of Resources                             No reportable conditions identified.
     System and Service
      Acquisition (SA)




                                                  SA-3: Life Cycle Support                                  No reportable conditions identified.


                                                  SA-4: Acquisitions                                        No reportable conditions identified.


                                                  SC-5: Denial of Service                                   No reportable conditions identified.
                                                  Protection
                                                  SC-8: Transmission Integrity                              No reportable conditions identified.
                                                  SC-9: Transmission                                        No reportable conditions identified.
                                                  Confidentiality
          System and Information Integrity (SI)




                                                  SC-12: Cryptographic Key                                  No reportable conditions identified.
                                                  Establishment and Management
                                                  SC-13: Use of Cryptography                                No reportable conditions identified.
                                                  SC-17: Public Key                                         No reportable conditions identified.
                                                  Infrastructure Certificates
                                                  SI-2 Flaw Remediation                                     No reportable conditions identified.
                                                  SI-3: Malicious Code                                      No reportable conditions identified.
                                                  Protection
                                                  SI-4: Information System                                  No reportable conditions identified.
                                                  Monitoring Tools and
                                                  Techniques
                                                  SI-5: Security Alerts and                                 No reportable conditions identified.
                                                  Advisories
                                                  SI-10: Information Accuracy,                              No reportable conditions identified.
                                                  Completeness, Validity, and
                                                  Authenticity
                                                  SI-11: Error Handling                                     No reportable conditions identified.


                                                                                  C-9
                      FY 2009 OFFICE OF INSPECTOR GENERAL
                         AUDIT OF THE E2 TRAVEL SYSTEM
                               SECURITY CONTROLS
                        REPORT NUMBER A080180/B/T/F09008

                   APPENDIX D – E2 SYSTEM INTERCONNECTIONS
                   APPENDIX E – DATABASE SECURITY RESULTS
                    APPENDIX F – NETWORK SECURITY RESULTS




Due to the sensitive nature of information contained in this appendix, only reports
provided to system security officials and the GSA Senior Agency Information Security
Officer contain detailed technical security assessment results in Appendices D-F. Requests
for the details of the technical security assessment results should be referred to the Deputy
Assistant Inspector General for Information Technology Audits at 703-308-1223.
FY 2009 OFFICE OF INSPECTOR GENERAL
   AUDIT OF THE E2 TRAVEL SYSTEM
         SECURITY CONTROLS
  REPORT NUMBER A080180/B/T/F09008

APPENDIX G – MANAGEMENT COMMENTS




                G-1
G-2
G-3
                                FY 2009 OFFICE OF INSPECTOR GENERAL
                                   AUDIT OF THE E2 TRAVEL SYSTEM
                                         SECURITY CONTROLS
                                  REPORT NUMBER A080180/B/T/F09008

                                   APPENDIX H – REPORT DISTRIBUTION

WITH APPENDICES D-F                                                                                   Electronic Copies
Office of the Chief Financial Officer (B) ..............................................................................4
          Chief Financial Officer ..............................................................................................3
          Director, Office of Financial Management Systems..................................................1
Federal Acquisition Service (Q) ............................................................................................5
       Commissioner ...............................................................................................................1
       Acting Director, Office of Travel and Transportation Services ...................................1
       Authorizing Official ......................................................................................................1
       Information Systems Security Manager........................................................................1
       Information Systems Security Officer ..........................................................................1
Office of the Chief Information Officer (I)............................................................................2
       Office of the Senior Agency Information Security Officer ..........................................1


WITHOUT APPENDICES D-F
Chief Human Capital Officer (C) ..........................................................................................1
Internal Control and Audit Division (BEI) ............................................................................1
Assistant Inspector General for Auditing (JA and JAO) .......................................................2
Deputy Assistant Inspector General for Finance and Administrative Audits (JA-F) ............1
Deputy Assistant Inspector General for Acquisition Audits (JA-A) .....................................1
Administration and Data Systems Staff (JAS).......................................................................1
Assistant Inspector General for Investigations (JI) ................................................................1
Audit Liaison, Office of the Chief Financial Officer (B) ......................................................1
Audit Liaison, Federal Acquisition Service (Q) ....................................................................1




                                                                   H-1
